<html>
<title> - LIBYA AT A CROSSROADS: A FALTERING TRANSITION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                        LIBYA AT A CROSSROADS: 
                         A FALTERING TRANSITION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 25, 2014

                               __________

                           Serial No. 113-206

                               __________

        Printed for the use of the Committee on Foreign Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-458PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
DOUG COLLINS, Georgia                BRADLEY S. SCHNEIDER, Illinois
MARK MEADOWS, North Carolina         JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts
SEAN DUFFY, Wisconsin                GRACE MENG, New York
                                     LOIS FRANKEL, Florida

























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Anne W. Patterson, Assistant Secretary, Bureau of 
  Near Eastern Affairs, U.S. Department of State.................     7
The Honorable Derek Chollet, Assistant Secretary of Defense for 
  International Security Affairs, U.S. Department of Defense.....    18

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Anne W. Patterson: Prepared statement..............    10
The Honorable Derek Chollet: Prepared statement..................    20

                                APPENDIX

Hearing notice...................................................    40
Hearing minutes..................................................    41
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs: Statement by A Omar Turbi.............................    42

 
                        LIBYA AT A CROSSROADS: 
                         A FALTERING TRANSITION

                              ----------                              


                        WEDNESDAY, JUNE 25, 2014

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, I will then recognize 
our distinguished chairman, Mr. Royce, for as much time as he 
may consume. Thank you, Mr. Royce, for being with us. I will 
then recognize other members seeking recognition for 1 minute. 
We will then hear from our witnesses and without objection, the 
witnesses' prepared statements will be made a part of the 
record. Members may have 5 days to insert statements and 
questions for the record, subject to the length limitation in 
the rules. The chair recognizes herself for 5 minutes.
    The Arab Spring uprising in the Middle East and North 
Africa of 2011 brought with them a period of brief hope for the 
future of democracy in the region. Millions across many nations 
demanded changes to the way their countries were being run and 
in many cases run by dictators who held a stranglehold on power 
for decades, unrelenting and unyielding. In some countries, the 
people managed to usher out the ruling party and for a moment, 
it appeared as though we were ready to see democracy rule the 
day. However, the lack of infrastructure, the lack of 
democratic institutions in these countries, as well the lack of 
political will have all but dashed those hopes and Libya, 
unfortunately, is one of the prime examples of this. Once 
Gaddafi was removed from power, those seeking to reform the 
government quickly proved that they were not up to the task and 
the country fell into a further state of disunity as armed 
militias battled for supremacy and control over Libya's future.
    Libya has been plagued by instability, both political and 
economic, and its factious nature has left it on the verge of a 
civil war that poses very real and serious and imminent 
national security challenges for us in the United States. To 
make matters worse, the porous nature of its borders has 
allowed extremists to flock to Libya, adding an even greater 
complexity to the downward spiral and increasing the likelihood 
of an all out civil war. Libya has become a terrorist safe 
haven and the worst case scenario for all who had hoped that 
the Arab Spring would bring democracy to the region. We are now 
witnessing this crisis in Iraq and we certainly cannot afford 
for both nations to become entrenched safe havens for 
extremists to destabilize the region and attack our allies and 
our national security interests.
    With the prevalence of so many weapons readily available to 
all, foreign fighters are flocking to Libya by the droves and 
we are seeing Libyan weapons showing up in conflicts across the 
entire region. So what must the United States do to help Libya 
avert a possible civil war, bring the political factions 
together to help resolve their differences, stabilize the 
security situation in the country, fight back the influx of 
extremists and shore up its borders and secure U.S. national 
security interests?
    The problem in Libya is that there are multiple crises 
going on at the same time, all with their sets of issues, but 
all linked together and the fate of Libya resides in 
successfully navigating not one or some, but all of these 
issues. Libya cannot secure its borders, nor can it repel the 
extremist invasion. It cannot take advantage of its oil 
revenues and reserves and it cannot stabilize or stimulate its 
economy. The political factions remain deeply divided. And as 
such, the state building process has stalled, the government 
has not been able to establish a means to protect its borders 
and control the extremists or make the much needed economic 
reforms.
    Today, the people of Libya are voting to choose members of 
a new Parliament. We hope that this is a new step forward into 
the path to stability, but as long as the security situation 
remains tenuous so, too, will the political transition stall 
and the economy falter. It is a seemingly unending spiral that 
leads to only further deterioration unless something is done 
immediately. The United States must remain engaged rather than 
continue its hands-off policy in Libya. We must find ways to 
work with the political parties to resolve their issues so that 
they can form a government that can de-escalate tensions and 
the fighting and finally get Libya back on the transition to 
democracy. After all, it was the administration that played a 
large role in the ouster of Gaddafi, but then left as quickly 
as we got there, leaving in our wake the mess for the Libyans 
to clean up themselves, knowing that they hadn't the 
organization or the ability to do so.
    What we are witnessing today is in part a consequence of 
that. And we now face an uphill battle that the administration 
cannot sidestep or sit on the fence and hope things work in our 
favor. We must prevent Libya from turning into another Iraq and 
we must avoid this from becoming yet another tragic strategic 
defeat in the Middle East and North Africa for U.S. foreign 
policy.
    And without objection, Mr. Deutch passed his turn for now 
and I am pleased to yield to the chairman of our committee, Mr. 
Royce. Thank you again for being here, Mr. Royce.
    Mr. Royce. Well, thank you, chairwoman and Mr. Deutch, 
thank you very much and also welcome, Ambassador Anne 
Patterson, good to see you, and Mr. Chollet.
    Last month, the President made a case for collective 
action, if you saw that speech. And indeed, coalitions were 
mobilized during the first Gulf War. More recently, coalitions 
helped end a war in Sierre Leone and hit al-Qaeda in Mali. We 
should always look to share the cost of actions which we take. 
But part of being a leader means holding our coalition partners 
accountable, making sure they fulfill the commitments they 
make. Unfortunately, this administration has failed in the role 
in Libya. It has been clear since the beginning that it was 
singularly focused on getting rid of Gaddafi, on ousting 
Colonel Gaddafi. The administration's lack of interest in 
leading has allowed our coalition partners to fail.
    Despite the acknowledged weaknesses of the Libyan 
transitional government, this administration allowed NATO to 
head home knowing the job was not done. The United Nations 
didn't fare any better. The U.N. mission didn't fulfill even 
the modest task it was given. The EU was charged with border 
security, a commitment that was made, but never kept. The EU 
didn't send border security assistance teams into Libya until 
2013 and only sent a portion of what was promised.
    If the administration's policy was to let others take 
action, then the U.S. was to make sure others fulfilled their 
commitments. There is no doubt that the Libyans have done a 
lousy job guiding their country during the transition. And 
ultimately, the Libyans must take ownership of their future. 
But we can and we should be supportive. Assisting Libya today 
will require that we sit down with allies and partners to 
assess the needs. We must be clear with our allies about our 
shared goals and objectives and what is expected of each other.
    We also need to be realistic about our own ability to 
accomplish our diplomatic objectives in such a dangerous 
environment. The protection of our diplomats must be a priority 
as we consider how to engage in Libya. We learned the hard 
lesson of the dangers of expeditionary diplomacy in Benghazi.
    Today, terrorists are using Libya as a training ground and 
a base to destabilize the entire region. Weapons and people 
from across North Africa including Boko Haram and al-Qaeda in 
the Maghreb are meeting up in Libya and they are organizing in 
Libya. We know terrorists are actively trying to destabilize 
Tunisia and Egypt and Algeria. We know terrorists trained in 
Libya are fighting both in Syria and in Iraq. Libya is rapidly 
slipping into chaos. And as we have seen in Iraq, a terrorist 
element in control of valuable natural resources poses a 
serious threat to the state, to its neighbors and to the United 
States. Madam Chairwoman, I would ask unanimous consent if I 
could----
    Ms. Ros-Lehtinen. Not an objection.
    Mr. Royce. This unanimous consent is for a statement of Mr. 
Omar Turbi to be included as part of the official record.
    Ms. Ros-Lehtinen. Thank you so very much, Mr. Chairman, for 
joining us. Without objection, we will make that a part of the 
record. We appreciate your time.
    And now I am pleased to yield to my good friend, the 
ranking member of our subcommittee, Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman. Thanks for calling 
today's hearing. Assistant Secretaries Patterson and Chollet, 
welcome to the committee. And we are so pleased to have the 
opportunity discuss recent events in Libya and U.S. strategy 
toward Libya going forward.
    Since the 2011 ouster of Muammar Gaddafi, Libya struggled 
to find its political footing, to put it mildly. What began as 
a promising transition to democracy has resulted in a series of 
rushed elections that has yielded a largely powerless central 
government.
    Today, Libyans will again vote to elect a new 
representative body to replace the deadlocked General National 
Congress. But one must ask whether Libyan people are still 
invested in elections. Despite U.S. assistance focused on 
building up state institutions which have been virtually 
nonexistent for 40 years, Libya is struggling to create a 
strong central government that can provide both security and 
services to its people. The power vacuum left an opening for a 
well armed and well funded militant groups to seize control. In 
late 2013, the level of violence dramatically increased, 
resulting from the brazen abduction of the Libyan prime 
minister. 2014 has been marred by both political and security 
setbacks. The General National Congress has been unable to meet 
due to attacks by gunmen. The Ambassador of Jordan was 
kidnapped in Tripoli. Prime Minister Zeidan was ousted in a no 
confidence vote. A successor has yet to be named and a 
successor has yet to be named to acting Prime Minister Al-Theni 
and many important ministerial positions continue to remain 
unfilled.
    As a result of the turmoil, militias have been emboldened. 
Militants have seized control of many of Libya's oil production 
facilities. Pauses in oil production have resulted in a 
reported loss of $30 billion creating a massive shortfall for 
this oil-based economy. In May, former exile, General Hifter 
and forces loyal to him, began launching attacks on militia 
groups in and around Benghazi. What exactly are General 
Hifter's intentions and despite his proclamation of wanting to 
restore security to Libya, many believe that his long-term goal 
is to seize government power. U.S. policy toward these actions 
has been unclear, as officials have expressed concern about his 
actions, but haven't condemned them. I hope Assistant Secretary 
Patterson, you can offer some clarity here today.
    The general lawlessness and lack of state security has 
given rise to the notion that Libya is now a safe haven for 
terrorists. The implications of this cannot be ignored. North 
Africa's porous borders will provide easy transport of fighters 
and weapons. Libyan fighters radicalized in Syria or Iraq could 
easily return to Libya or any of its North African neighbors. 
Terrorist groups like Ansar al-Shari'a are recruiting from 
Libya's rural regions. These factions and others, many loosely 
affiliated with al-Qaeda, have reached nearly 250,000 strong. 
This political chaos and devolving security situation has many 
asking, quite frankly, why the U.S. continues to remain 
invested in Libya. I believe, as I stated, that the 
implications of letting Libya become a failed state or a 
terrorist safe haven are far too great for our national 
security. It is strategically positioned as a transit point 
between North Africa and the Middle East, and has water access 
to Europe.
    Counterterrorism cooperation between our allies in these 
regions has to be a top priority, but do we even have a viable 
Libyan counterterrorism institution to partner with? Clearly, 
the deteriorating security situation poses the most immediate 
challenge, but the only way that the Libyan Government can 
stabilize the security situation long term is through 
strengthening institutions that will legitimize the government 
in the eyes of the Libyan people. Libya, unlike many of its 
Arab Spring neighbors, doesn't need U.S. dollars. It needs U.S. 
expertise.
    Assistant Secretary Patterson, I look forward to hearing 
how we are continuing to provide assistance and operate 
programs that help build state institutions, strengthen rule of 
law and good governance. And I hope you will address whether 
the conditions set forth on the nearly $100 million of 
assistance we are providing continue to be met.
    As we continue our efforts to train and build a capacity of 
the general purpose force, how can we ensure that these troops 
are committed to taking responsibility for Libya's security? We 
are unfortunately seeing the effects of an apathetic military 
in Iraq.
    Assistant Secretary Chollet, I hope you will expand on the 
current status of our training programs, whether any progress 
has been made, and what kind of coordination is taking place 
among our European partners who are assisting these efforts. We 
know that the path to true democracy doesn't simply include 
holding some elections. The Libyan people spent 40 years under 
Gaddafi's brutal rule and they need to chart their own path 
forward. But I do believe that the United States is equipped to 
provide the kind of technical assistance needed to increase the 
capacity of the Libyan Government.
    The deteriorating security situation has made it 
challenging for U.S. personnel to operate in Libya and the 
American public's view of Libya is undoubtedly and rightfully 
colored by the tragic events of September 12, 2012. This is 
precisely why we look to you both today to help all of us and 
help the American people understand why what happens in Libya 
in the coming months and years directly affects the United 
States. I thank you both for being here today and I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch, for that 
opening statement.
    Mr. Chabot, our subcommittee chairman.
    Mr. Chabot. Thank you, Madam Chair. Ambassador Patterson, 
having chaired this committee in the last Congress, I have 
enjoyed working with you both in Egypt when I visited there a 
couple of times following the revolution and in your current 
capacity and you certainly have not shied away from the world's 
hot spots and we appreciate your service.
    As disappointments go, Libya ranks pretty high on the list. 
I traveled there in 2012, a little less than a month before our 
friend Chris Stevens and three other brave Americans were 
murdered in Benghazi and while the security situation was 
tenuous at best, there did seem to be some sense of optimism 
among the Libyans I met with at that time. Gaddafi was dead and 
gone. Elections had been held and a new generation of leaders 
was convening to plan the future of a democratic Libya. Sadly, 
things have gone downhill since then.
    Libya has abundant energy resources and port facilities 
that could jump start a domestic economy that was for so long 
controlled by a dictator. A safe and stable Libya could become 
a magnet for investment and tourism, but right now that is an 
area that seems to be a pipe dream.
    I hope today we can have some productive discussion about 
how very dangerous and unstable Libya can get from here to 
there.
    And Madam Chair, I would note that I have a judiciary 
hearing on the unprecedented numbers of children and young 
people coming across our southern border and so I will be 
sharing my time back and forth here.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. And I 
know that there are many subcommittees and committees meeting 
at this time, so thank you so much.
    Mr. Kennedy of Massachusetts is recognized.
    Mr. Kennedy. Thank you, Madam Chair, and thank you to the 
ranking member as well for holding this hearing and to our 
witnesses, thank you. Wonderful to see you both again. 
Appreciate your tremendous service to this country.
    I am looking forward to your testimony today. It is 
obviously an extraordinarily important topic as you have heard 
from my colleagues. The one question I might add on top of this 
is trying to take a bit of a longer view as well. We have had a 
number of hearings in this committee over the course of the 
past 18 months or so about U.S. policy in various countries in 
North Africa and the Sahel. If you look at demographics, if you 
look at access to opportunity, if you look at the longer term 
and about the next decade or so you are having probably close 
to 100 million people coming of age trying to find work with 
very little access to transportation, food, security, 
healthcare or a job.
    And so yes, as we are focused on and rightfully, the 
immediate impacts of trying to create a safe and secure Libya, 
as we are throughout much of this region, what are we doing to 
try to make sure we are not putting out fires here every day 
for the next 10, 15, 20 years?
    Thank you, Madam Chair. I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Kennedy. Mr. Weber of 
Texas is recognized.
    Mr. Weber. I am ready to get going.
    Ms. Ros-Lehtinen. Thank you very much, sir. Mr. Connolly of 
Virginia is recognized.
    Mr. Connolly. Thank you, Madam Chairman, and thank you for 
holding this hearing. I just think that in some ways this 
hearing is very timely and very opportune, but Libya is a bit 
of a morality tale about how limited our reach can be. There 
are lots of people who wanted us to intervene in a very robust 
way during the Arab Spring, but I am not sure, even had we done 
that, the outcomes we are looking at today would have been very 
different. And that is the problem. It is great to feel 
wonderful in the beginning of a revolution, but generally a lot 
of revolutions have bad outcomes or less than desirable and 
noble outcomes. And I think we are seeing that in Libya today.
    So I am going to be very interested in hearing the 
testimony, but what is our part to leverage and influence the 
future course of Libya in a way that we hope is democratic and 
open and inclusive and that serves our interests as well those 
of Libya's?
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly. Mr. DeSantis of 
Florida. Dr. Yoho. Let us go. Thank you.
    And now we are pleased to introduce our panelists. First, 
we welcome back a good friend of our subcommittee, Ambassador 
Anne Patterson, who is Assistant Secretary of State for Near 
Eastern Affairs. Ambassador Patterson has been our U.S. 
Ambassador to El Salvador, Colombia, Pakistan, and most 
recently, Egypt. She has also served as Assistant Secretary of 
State for International Narcotics and Law Enforcement Affairs, 
Deputy Permanent Representative to the United Nations and 
Deputy Inspector General at the State Department. Welcome, 
Madam Ambassador.
    We also have with us Mr. Derek Chollet who is the Assistant 
Secretary of Defense for International Security Affairs. Prior 
to this position, he served in the White House as Special 
Assistant to the President and Senior Director for Strategic 
Planning on the National Security Council staff and at the 
State Department as the principal Deputy Director of the 
Secretary's Policy Planning staff. Thank you both for being 
here. As I said, your remarks will be made a part of the record 
and feel free to summarize. We will begin with you, Honorable 
Ambassador Patterson.

    STATEMENT OF THE HONORABLE ANNE W. PATTERSON, ASSISTANT 
 SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Ambassador Patterson. Thank you, Chairman Ros-Lehtinen, 
Ranking Member Deutch, members of the subcommittee, for 
inviting me to discuss the situation in Libya and the 
administration's response.
    Libya's transition faces significant challenges that will 
require intensive engagement by the U.S. and our international 
partners for many years. Since the fall of the Gaddafi regime, 
Libyans have been struggling to build a stable and effective 
democratic government that provides a secure environment and 
economic opportunity. The stakes for the United States, as well 
as for the Libyan people, are substantial.
    Libya is a relatively large country with a comparatively 
small population whose unifying ties are relatively weak and 
where strong, local and tribal ties make national unity 
difficult. During the past 3 years, the national government has 
been unable to provide adequate security and services for its 
people. Weapons from Gaddafi's substantial caches have floated 
on to the market, some traveling across borders into the Sinai 
and into Syria.
    The security vacuum has permitted over 100 militias and 
other armed groups dissatisfied with the government to target 
critical oil infrastructure, disrupt the economy, and incite 
tensions between Islamist and secularist groups. Judges, 
politicians, and civic leaders are routinely murdered. Working 
with our colleagues at DoD and the FBI, militia leader, Ahmet 
Abu Khattala, was removed from the battlefield and will face 
U.S. justice.
    Amidst this chaos, Libya's oil production, the sole source 
of government revenue, has fallen to 20 percent of capacity 
around 280,000 barrels per day. These disruptions have severely 
hampered Libya's economy and ripple through the entire country, 
amounting to up to $30 billion in lost revenue.
    U.S. national security interests require vigorous U.S. 
engagement to support Libya. We are pursuing several important 
initiatives to try and arrest further political and security 
instability and to help revive Libya's private sector so it can 
play a crucial role in stabilizing the country and we would 
like to do more.
    First, in the immediate term, we are urging Libyans to 
agree to general principles to build consensus and guide the 
remainder of the political transition and stressing that 
political differences must be settled through dialogue and 
compromise. Ambassador David Satterfield is meeting intensively 
and working closely with key Libyan stakeholders, U.K. special 
envoy Jonathan Powell, and with U.N. and international envoys.
    Second, we are working with Libya, its neighbors, and the 
international community to strengthen Libya's internal security 
and tightening border security.
    Finally, once there is sufficient political stability and 
security, we have created a framework that partner countries 
will use to coordinate their assistance in key areas. We are 
also encouraging the U.S. private sector to come in and help 
rebuild Libya's economy and its institutions.
    Despite the many worrying events, we do see some positive 
steps occurring in Libya's economy and in its democratic 
transition. Last week, I spoke at a symposium at the Wilson 
Center that focused on rebuilding Libya's economy. The experts 
and Libyan ex-patriots acknowledged the many challenges Libya 
poses for companies interested in investing there. But they 
also underscore Libya's great economic potential and how 
Libyans generally want U.S. companies to invest there.
    We are currently providing more than $100 million in 
assistance to Libya. Given the government's historic 
weaknesses, one of our crucial missions is to train Libyans in 
the fundamentals of public administration and finance. We have 
also focused our efforts together with our European partners on 
promoting democratic processes that are crucial for long-term 
stability and we have been providing targeted technical 
security assistance such as securing and neutralizing Gaddafi 
era chemical weapons stockpiles. Libya is now free of all 
weapons of mass destruction.
    Today in Libya, voters went to the polls to elect a new 
legislature to be called the Council of Representatives. 
Today's elections are a milestone in Libya's transition and a 
symbol of Libya's continued commitment to democracy.
    Libya's constitutional drafting assembly has also begun 
drafting a new Constitution which we are hopeful will create a 
new Constitution that will include separation of powers and 
respect for the dignity of all Libyans.
    Madam Chairman, Ranking Member Deutch, we approach our 
diplomatic engagement with Libya with our eyes wide open. To 
protect our national security interests and to preserve broad 
future opportunities for U.S. companies, we need a sustained, 
diplomatic engagement with Libya. We will continue to consult 
with the Congress as we go forward, but we will need to broaden 
our support to Libya with a range of programs in the months 
ahead. It is my view that we will need to expand our in-country 
diplomatic and development presence and activities.
    Thank you, Madam Chairman.
    [The prepared statement of Ambassador Patterson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Thank you, Madam Ambassador.
    Mr. Chollet.

 STATEMENT OF THE HONORABLE DEREK CHOLLET, ASSISTANT SECRETARY 
OF DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS, U.S. DEPARTMENT 
                           OF DEFENSE

    Mr. Chollet. Thank you, Madam Chair, Ranking Member Deutch, 
members of the subcommittee. I am grateful to speak to you this 
afternoon about Libya and the Defense Department's approach for 
addressing Libya's immense security challenges. I will focus my 
remarks on four issues: The general purpose force, 
counterterrorism training, border security, and our efforts to 
secure the U.S. Embassy in Tripoli.
    First, the key factor in Libya's transition is security and 
the successful development of the Libyan armed forces. Last 
year, at the request of the then Libyan prime minister, the 
United States committed to help train a Libyan General Purpose 
Force of 5,000 to 8,000 personnel. This kind of force will help 
the Libyan Government form its core military. Libya has 
committed to fully fund this training which is estimated at 
roughly $600 million over the duration of the program which can 
take up to 8 years. In this effort, when started, will be 
executed by our Africa command. And I want to stress that 
building Libya's military is not an American effort alone. It 
has strong international support from others including the 
United Kingdom, Italy, and Turkey which have all begun training 
and have committed to training a combined 7,000 personnel in 
the coming years. And just yesterday, 255 troops trained by 
Italy completed their training and returned to Libya.
    So although the United States stands by this commitment, 
progress has been slow. Several factors have hampered the 
execution of our training mission. The most important is 
Libya's political turmoil and a deteriorating security 
situation which makes it difficult to have the necessary U.S. 
personnel on the ground in Tripoli to execute this program. 
Other factors include a lack of vetted training candidates, a 
lack of pledged Libyan funding, and weak security institutions.
    To help build Libya's security institutions and enhance 
military professionalism, the Defense Department recently had 
40 Libyan military personnel attending U.S. professional 
education courses, including senior service colleges via the 
IMET program. And additionally, the Libyans have funded a 
national security seminar for 25 Libyan military leaders to be 
students at NDU, National Defense University, last year. We 
also hope to provide defense advisors to the Libyan Ministry of 
Defense in the future via the Ministry of Defense Advisor 
Programs and the Defense Institution Reform Initiative.
    Now in addition to this effort to build a general purpose 
for us, the second line of effort is working with the Libyan 
Government to develop its counterterrorism capacity through the 
Global Security Contingency Fund. And this will help train 
several hundred Libyan special forces personnel.
    Third, as was mentioned, Libya's border regions have become 
major areas of instability and the cross border movement of 
violent extremists, the trafficking of weapons and the massive 
influx of immigrants is deeply concerning. This is especially a 
worry to those countries such as Egypt and Italy, who are the 
recipients of the flow of Libya's weapons and people. And with 
congressional support we have developed a program to help build 
Libya's border security capacity through the Global Security 
Contingency Fund. And we are coordinating our efforts with the 
European Union who has focused its program on border security.
    And fourth, on Embassy security, we maintain a laser focus 
on the immense challenges and risks of operating in an 
uncertain security environment and we will do what it takes to 
protect our people and to bring to justice those who do us 
harm. Given our concerns about security in Tripoli, we have 
placed additional U.S. military forces in the region to respond 
to a variety of contingencies and stand ready to respond as 
needed. Alongside our efforts to prevent attacks, we also 
maintain an unrelenting commitment to hold accountable to those 
who harm Americans.
    And Madam Chair, as this committee knows, and as Ambassador 
Patterson mentioned, on June 15th the U.S. captured Abu 
Khatallah who was a key figure in the September 11, 2012 
attacks in Benghazi. The success of this mission was due to the 
combined efforts of our military, law enforcement, and 
intelligence personnel, and as the President stressed just last 
week, with this operation, the United States has once again 
demonstrated that we will do whatever it takes to see that 
justice is done when people harm Americans.
    Madam Chair, Ranking Member Deutch, and members of the 
subcommittee, after the fall of Gaddafi in the fall of 2011, 
President Obama made clear that ``we are under no illusions. 
Libya will travel a long and winding road to full democracy and 
there will be difficult days ahead. And we have been living 
through those days recently. But the United States, together 
with the international community, is committed to the Libyan 
people.'' And so with this in mind, we continue to support 
Libya's transition and to do so we will work closely with the 
Libyans, our international partners, and the Congress. Although 
our efforts have been complicated by Libya's tumultuous 
politics and tense security environment, we remain committed to 
strengthening Libya's security institutions.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Chollet follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much to both of our 
witnesses and I will begin with the question and answer period. 
Thank you.
    Libya is as unstable as ever and the current government, as 
you testified, Mr. Chollet, is unable to provide security for 
its own institutions, infrastructure, or exercise control over 
its vast and porous borders. Our efforts to strengthen the 
defense capabilities of the Libyan Government is this General 
Purpose Force, but we haven't even begun training them 3 years 
after Gaddafi. So what were we doing these past 3 years while 
Libya became the wild, wild West? Why didn't we remain engaged, 
knowing that the Libyan people would be ill equipped, ill 
prepared to face the immediate challenges and how has our 
disengagement contributed to the current situation on the 
ground?
    We know that Gaddafi had a large stockpile of weapons and 
even sealed stockpiles of chemical weapons and that once he 
fell, it was a mad dash to try to recover those. We even 
allocated over $40 million in an effort to keep them out of 
terrorist hands, yet Libyan arms have been used not only in 
Libya, but in Mali, in Algeria, Tunisia, Chad, Lebanon, and 
Syria, probably everywhere else.
    Furthermore, Qatar was shipping weapons to Libyan rebels 
despite an arms embargo on Libya during the 2011 uprisings and 
we did nothing to stop that. In fact, many sources say we 
condoned it. Unsurprisingly, many of these weapons fell into 
the hands of terrorists. How did we fail to recover Gaddafi's 
arms and actually end up indirectly supplying the terrorists 
with even more weapons? And what is the status of our efforts 
on that front now? How heavily armed are these groups today?
    Ambassador Patterson, today, the people of Libya are going 
to the polls, as we have said, to select members of their new 
Parliament. However, it seems that the administration is bent 
on keeping its hands off policy in Libya despite seeing where 
that has gotten us. Reuters published an article last night 
about our policy in today's election and it quotes an unnamed 
U.S. Government official saying that our policy won't change 
significantly no matter what the outcome of the elections are 
and the administration has acknowledged there is only so much 
that it can do in Libya. Is that our Libya policy? We help 
create the mess, but we are going to keep as far away as 
possible that we can't do anything to right the ship?
    And the rapidly deteriorating security situation certainly 
looms heavy over this election. The timing of the election was 
also rushed as they were only announced last month. What has 
the administration done to help the Libyans ensure that the 
elections are credible and that the results will be truly 
representative of the people of Libya? Can you give us the 
latest assessment on the elections? What are the major issues? 
How do we plan to deal with the new government to reverse 
course in Libya? Thank you to both.
    Mr. Chollet?
    Mr. Chollet. Thanks, Madam Chair. On the issue of Libyan 
weapons, for many years it has been a great concern of ours. 
The amount of weapons in Libya and the flow of those weapons 
outside of Libya, whether it is headed toward Mali or across 
into Egypt. We have had some successes, particularly, for 
example, on the chemical weapons issue which was a very 
concerning situation after the fall of Gaddafi and through our 
efforts we helped secure the chemical weapons facility in 
Wadan, but then very importantly over the course of 2013 spent 
about $50 million to help destroy weaponized munitions that had 
been undeclared prior to the fall of Gaddafi, so identify 
those, secure those munitions and then ultimately destroy them. 
That was administered through our Cooperative Threat Reduction 
Program.
    Secondly, on MANPADS, shoulder fired air defense missiles, 
again, Libya had a tremendously large stockpile of these 
weapons that Gaddafi had amassed. And the Department of 
Defense, working very closely with our partners in Department 
of State, spent roughly $40 million to help identify and 
destroy large stocks of those MANPADS. So we feel as though 
even though we are still very concerned, there are some 
successes we have had.
    Very quickly on the General Purpose Force and the training 
effort, as I said in my statement we are not where we want to 
be on that effort. There are many reasons for that. It is only 
a year ago that the Libyans asked for assistance in training 
such a force, so we have worked very hard, the Department of 
Defense through my office, through AFRICOM, but with our State 
Department colleagues as well on scaling up this effort. One of 
the reasons why it has been slow is because our Libyan partners 
and the lack of capacity on their end to help hold up their end 
of the bargain in terms of paying for this program. As I 
mentioned, it is about $600 million, at least our piece of it, 
to be scoped.
    It is important to note that our allies with the gun 
training, modestly, are doing so out of pocket. The Libyans 
have not paid them so the training that they are doing is 
something they are doing out of their own budgets. But the 
second issue, I would just say the problem of identifying and 
vetting Libyan personnel. We want to make sure that the folks 
that we do train are qualified and capable of being trained and 
one of the challenges we face is given the security environment 
we can't have the personnel on the ground in Tripoli right now 
to help execute this program. So there is a chicken and an egg 
situation here where security is a huge problem, but because of 
the lack of security, we can't have the necessary personnel on 
the ground to help execute programs to improve Libyan security. 
So that is the dilemma we face.
    Ms. Ros-Lehtinen. Thank you, sir. Ambassador Patterson?
    Ambassador Patterson. Madam Chairman, I heard this morning 
that 97 percent of the polls opened on time. Participation 
seems steady, but slow, but it is 112 degrees there, so they 
are hoping that participation will go up in the afternoon. I 
think, Madam Chairman, that we have tried to be very much 
engaged in this electoral process. We trained over 400 election 
observers. We provided three advisors to the Electoral 
Commission through IFA, a very respected institution. National 
Democratic Institute is working with political parties to train 
particularly young people and women, and to do capacity 
training. And then we have funded civil society organizations 
who are promoting voting mobilization and voter education. So 
we have tried and I can talk about the Constitution process, 
too. So we have tried to totally lean forward and support this 
election process which is going okay so far and we are hoping 
that it will result in a new legislature in a few weeks.
    Madam Chairman, we have a program should the political 
situation and security situation stabilize, to very 
substantially increase our presence and our involvement in 
Libya because the range of what they need, as Mr. Deutch 
noticed, is technical assistance more than money. They have a 
crying need for assistance on issues like public finance and 
budget management or managing the revenues from the petroleum 
sector. And we are very anxious to be engaged with them in 
those areas. So we are planning to up our capacity there.
    As Derek says, a lot of it comes down to the amount of risk 
we are willing to take and the amount of people we are willing 
to put on the ground. Thank you.
    Ms. Ros-Lehtinen. Thank you very much. And now I turn to 
the ranking member. Mr. Deutch, for his questions.
    Mr. Deutch. Thank you, Madam Chairman. Assistant Secretary 
Patterson, why is the U.S. in Libya? What are our interests? 
What is our strategy for operating there if the current 
security situation remains unchanged?
    Ambassador Patterson. The most urgent, if I could say, the 
most urgent objective we have is counterterrorism. Because it 
is critical that Libya not become essentially an ungoverned 
space and become a threshold to attack our allies and 
neighbors, mostly immediately Tunisia and Algeria, but also 
there has been a very dramatic effect on Egypt as arms have 
flowed in from Libya into the Sinai and affected Israel's 
security. There is an issue of regional stability, particularly 
again with Egypt and Tunisia. The Libyan people deserve, after 
decades of a ruthless dictator, a better life in democracy and 
we certainly want to contribute to that.
    And then there is the effect, I think, on our European 
allies with migration from Libya into Europe. But I would say 
the most urgent objective there is the counterterrorism 
objective.
    Mr. Deutch. So just to continue that, Mr. Chollet, are we 
seeing fighters from Libya going to Syria for training and then 
returning to Libya and are there fighters from other North 
African countries going to Libya for training and then going 
back to their countries?
    Mr. Chollet. Congressman, I think clearly Libya has become 
a magnet and it has been for many years and several years now a 
magnet for extremists, terrorists to go there. It is a vacant 
lot in many places in Libya and that tends to attract those 
types of people.
    In terms of the flow both in and out, I would like to 
actually get back to you on that, maybe even provide you a 
classified answer if I could, because clearly it is something 
that is concerning and I know as Ambassador Patterson mentioned 
with our European allies and in particular, the Italians who 
are seeing a tremendous migration flow coming up out of Libya. 
Some of them are Libyans, but some of them are from other 
African countries that are using Libya as a transit point. The 
Italians are very worried that among those migrants will be 
extremists. So far, we have not seen that, but that is 
something we have got to be watching carefully just given the 
sheer volume of people flowing up north through the 
Mediterranean from Libya.
    Mr. Deutch. Assistant Secretary Patterson, getting back to 
the know how that we can provide, what civil society programs 
are ongoing where we are taking the lead and where have we had 
positive impact? What else can we be doing to impact civil 
society in a positive way?
    Ambassador Patterson. I think we have had a positive effect 
on the election process. I think we have had a positive effect 
on NDI training the parliamentarians and we plan to do more of 
that. IRI, for instance, is working with the Ministry of local 
government to work on local councils on decentralization. We 
have given a number of grants to civil society for small 
municipalities to encourage dialogue, to train, for instance, 
city councils and efforts like how to undertake a budget.
    We are going to send up a number of--we have had women 
empowerment programs which have been quite successful, although 
very limited. And these are precisely the sorts of things that 
have had a limited impact, but we very much would like to 
expand. And they are not wildly expensive either. You can get a 
lot of bang for your buck here.
    Mr. Deutch. Can you just go back and connect the dots then 
between these types of civil society programs and the reasons 
that it is important for us to be in Libya? How do these 
programs help address the rationale that we have to be in Libya 
to begin with?
    Ambassador Patterson. Because, sir, there is essentially, 
no--let me put it this way, there are extremely limited 
government structures. And I think we were all taken by 
surprise when Gaddafi left, about the sheer lack of government 
institutions. So when civil society is mobilized and for 
instance when we empower these local councils and work with 
these local councils, they can make local government more 
responsive and learn how to engage with local government.
    I think on the training, for instance, the parliamentarians 
or the political parties, this is entirely virgin territory. If 
we can train a political party, train people how to 
participate, it will help build Libyan institutions and we need 
to do it very broadly and aggressively.
    Mr. Deutch. And finally, when you say it is a good return, 
good bang for the buck, can you give some numbers to that? How 
much do those sorts of programs cost?
    Ambassador Patterson. Well, we have given grants, for 
instance, through NEFE and through USAID. We have given small 
grants, $15,000, $20,000, and some larger investments in the 
electoral process. But you can do a lot. Women's empowerment, 
for instance, all over the region, we have given very small 
grants, $25,000, $50,000 to NGOs to train women to start their 
own businesses and that is, I think, a very productive use of 
our funds.
    Mr. Deutch. Very helpful. Thank you, both.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch. And we 
will turn to Mr. Weber of Texas.
    Mr. Weber. Thank you, Madam Chair. Secretary Patterson, in 
August 2011, Secretary Clinton--well, before I go there, let me 
do this. Recent unrest in Egypt. Of course, you saw the regime 
go down. You saw the military get involved. You saw Morsi go 
and Sisi come up. Has that impacted Libya in any way? Do we see 
any kind of influx from Egypt since it borders Libya?
    Ambassador Patterson. The Egyptians are very concerned 
about their border with Libya. It is about 700 miles 
essentially of sand. They have upped their presence on the 
border. They have a UAV base now on the border, so yes, they 
are quite concerned about that. I think there has been some 
success in stopping the weapons flow, but there were plenty of 
weapons that flowed into Egypt before they were active on the 
border.
    Mr. Weber. How many UAVs do they have--would you hazard a 
guess?
    Ambassador Patterson. I don't know, but I can get that 
figure. They are quite new and they were supplied by a 
neighboring country. They are quite new.
    Mr. Weber. And who manufactured those UAVs?
    Ambassador Patterson. I think they are a Chinese 
manufacturer, but supported by the United Arab Emirates. They 
were basically a military-assistance program from the United 
Arab Emirates.
    Mr. Weber. Okay, do we have good intel on the ground in 
Libya?
    Ambassador Patterson. We have better and better intel on 
the ground, like most of these situations. And I can talk to 
you about that later. But let me be clear, there are huge 
portions of space in Libya that we do not have good information 
about, but our intelligence picture as is usually the case in 
these situations, the more you look, the more you learn. And I 
think our intelligence picture has gotten substantially better 
over time.
    Mr. Weber. How would you describe the relationship between 
the current Egyptian regime, if you will, and the Libyan 
regime?
    Ambassador Patterson. I think it is professional and 
cordial, but what the Egyptians are extremely concerned about 
is the fighting in eastern Libya spilling over into their 
territory. So that is a major strategic concern for the 
Egyptians, but they have relations with the government. They 
have a large number of guest workers in Libya, always have had, 
and that is an important source of remittances.
    Mr. Weber. And are they maintaining forces along that 700-
mile stretch?
    Ambassador Patterson. They have maintained some forces 
there, but it is very hard to patrol, 700 miles of sand, of a 
border that is essentially unprotected.
    Mr. Weber. I am kind of going to back into my original 
question. In 2011, Secretary Clinton stated that ``the Libyan 
people made this revolution and they will lead the way forward, 
but they deserve our help. From the beginning, the United 
States has played a central role in marshalling the 
international response to the crisis in Libya. The United 
States will stand with the Libyan people and our international 
partners in the weeks and months ahead to help the Libyans 
write the next chapter in their history.''
    Disappointingly, the decision to ``stand with our 
international partners'' seems to have been interpreted as 
allowing them, that is the Libyan people, to fail. Does the 
administration, in your view, bear any responsibility for the 
unfulfilled commitments, i.e., of our allies, NATO, U.N., 
European Union, EU? And what does ``allowing others to lead'' 
mean if the United States is not going to hold the others 
accountable for their commitments? Are we setting a dangerous 
precedent here?
    Ambassador Patterson. Mr. Weber, I think all our 
international partners have found this situation 
extraordinarily difficult. And we have had a very high degree 
of cooperation, particularly with our European allies and also 
with the U.N. But let me give you a specific example on police 
training. I think it is widely recognized that the Libyans are 
desperate for professional police force because basically the 
militia performed that function. But our international partners 
have tried to do that. And what they have run into is tribal 
and ethnic conflict. They have run into difficult issues of 
vetting because they don't want to take people in their 
territory who are problematic. So I think it has been a 
challenge for everybody concerned to move forward in Libya.
    Mr. Weber. Okay. Thank you, Madam Chair. I yield back.
    Ms. Ros-Lehtinen. Thank you. Mr. Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chairman. Ms. Patterson, is 
there a Libyan Government?
    Ambassador Patterson. There is a prime minister. He is--
yes, he is a transitional prime minister. There is a Parliament 
that will dissolve itself when the new Parliament comes into 
office. There is a constitutional drafting committee that seems 
like a relative bright spot. They have principles. They are 
meeting in committee. They are formulating the principles of 
the new Constitution. So there is some semblance of a 
government, yes.
    Mr. Connolly. Well, I mean the fact that people have titles 
doesn't form a government. I mean wasn't the Parliament just 
sort of temporarily abducted recently?
    Ambassador Patterson. And the prime minister, too.
    Mr. Connolly. And the prime minister.
    Ambassador Patterson. Yes, the last prime minister.
    Mr. Connolly. So they don't have a functioning police 
force. There is not really a functioning army.
    Ambassador Patterson. No, their militia basically provide 
that function.
    Mr. Connolly. And there are lots of different militias?
    Ambassador Patterson. Yes.
    Mr. Connolly. Some of which are friendly and some might be 
less friendly?
    Ambassador Patterson. Some are friendly, some are less 
friendly, all are outside essentially the rule of law. I think 
our intelligence community counted something like 125 separate 
militia. But the leadership, what is surprising, Mr. Connolly, 
is not just leadership, there was nothing in the bureaucracy.
    Mr. Connolly. Yes.
    Ambassador Patterson. So any time you wanted a contract 
signed and some of our businesses have really dramatic stories 
about this. You wanted a contract signed. You wanted a dispute 
resolved. You wanted to do what any government would consider 
normal business. It was almost impossible and that is what our 
corporations have run into, but they say with endurance, you 
can probably get this done. But there is nothing below this.
    Mr. Connolly. I am very sympathetic with that which is why 
I was maybe not as enthusiastic about the original revolution, 
not because I like Gaddafi, or that regime, but the question 
always is okay, what happens after?
    Now what you just described is it is hard for me to see 
much of a difference between the Libya you are describing today 
and the Libya I visited 2 years ago. I mean it sounds like 
nothing has changed. When I landed in Tripoli, a militia 
guarded the airport. They were the security at the airport. We 
were talking about civil engagement and we were very excited 
about empowering women and other groups in society. And we were 
hopeful about elections that were pending. We were hoping a 
functional government might emerge from that. And I am not 
trying to lay blame, but it just sounds to me like not much has 
happened in Libya in 2 years. We are still talking the same 
language about the same hopes and not much has materialized 
other than maybe a deterioration in the internal security 
situation. Would that be a fair statement?
    Ambassador Patterson. I think it would certainly be a fair 
statement that there has been a deterioration in the political 
situation and in the security situation, but Mr. Connolly, I 
don't see any real alternative to U.S. policy except to push 
ahead on these objectives. We have to stay there. We have to 
try and engage with the political actors who want to 
participate in political life and we have to try and improve 
the security situation.
    Again, I think our overriding security and national 
interest simply demand that we try.
    Mr. Connolly. I agree with you, Ms. Patterson. But I guess 
what I am asking is what are reasonable milestones for 
measuring progress though? If, in fact, in the 2 years since I 
have been there we have seen deterioration rather than progress 
and that happens. Well, we don't want to be having this hearing 
10 years hence saying well, yes, nothing has changed. The 
militias are still running it and there isn't a functional 
government and there is no army. And civil society, we are 
still trying to push for it, but not much has happened. I mean 
at what point do we say well, no, here are some real milestones 
we have to help them reach or they have to reach and that is 
the organizing principle for us and our allies in terms of aid 
investments and training programs and the like.
    Ambassador Patterson. I think one of our first milestones 
would be formation of the General Purpose Force to have some 
true national security apparatus that could protect the 
population that was truly national in scope. And that strikes 
me as our most urgent priority and guideline as you would say 
that we have to do.
    Mr. Connolly. Mr. Chollet, would you mind commenting and 
then my time is up.
    Mr. Chollet. Yes, sir. I would agree with Ambassador 
Patterson in terms of that initial milestone. I would say two 
of the things that have changed is what I mentioned previously 
which is the chemical weapons that have been undeclared were 
secured and many of the MANPADS, thousands of the MANPADS, were 
identified and destroyed. Those were two of the most urgent 
issues we faced----
    Mr. Connolly. I am sorry, I didn't hear the second one.
    Mr. Chollet. The MANPADS, the shoulder fired air defense 
missiles. Thousands of those were identified and destroyed 
thanks to your support through funding to the State Department 
and to the Defense Department we were able to get that done. 
Now I don't want to sugarcoat it. We still have huge concerns 
about Libya's security, but some of these training efforts that 
are underway, moving too slow, we are frustrated by the 
bureaucratic dysfunction within Libya. If we can get that 
underway a year from now, hopefully we will be able to report 
on progress.
    Mr. Connolly. And one observation, I do think what has 
unfolded since the revolution in my opinion actually justifies 
the reluctance of the Obama administration to get too far into 
Libya despite importunities to the contrary because it was not 
at all clear what would succeed and Gaddafi, and what our 
leverage was. I mean sometimes we listen to rhetoric up here or 
in the press and even around the world and you would think 
somehow America is all powerful and just with the whisk of a 
wand we can make everything better and we can dictate the terms 
of how it gets better. That is not the case. And Libya is a 
great example of that.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly. Mr. DeSantis.
    Mr. DeSantis. Thank you, Madam Chairwoman. Secretary 
Patterson, back in 2009, Gaddafi was considered by both the 
Bush administration, the Obama administration, a lot of senior 
Republicans, I know in the Senate as being a key 
counterterrorism outlier. And I know there was a lot that 
happened in the intervening periods, but as we look at Libya 
today compared to that 2009 period where there seemed to be a 
lot of agreement in Washington from what I can tell, do 
Islamist Jihadists have a wider berth to operate in Libya today 
than they did 5 years ago?
    Ambassador Patterson. Sure. If I might add, these societies 
run by ruthless dictators were never viable. They were always 
going to come crashing down. So we will just have to deal with 
that and there is no going back. But yes, they have now a 
terrorist safe haven in parts of eastern Libya.
    Mr. DeSantis. And there has been discussion about weaponry 
going to Syria and some of these other places. Is it the case 
that over the last 5 years Islamic Jihadists have had a greater 
access to weapons within Libya?
    Ambassador Patterson. Everyone has had greater access to 
Libyan weapons. I think Gaddafi must have had enormous caches 
that were underestimated, but a lot of it has leaked onto the 
black and gray market as well.
    Mr. DeSantis. So it just seems to me--and then Ansar al-
Sharia, the group responsible for the Benghazi attack in 2012, 
were they allied with Gaddafi or were they part of the 
``rebels'' from 2011 as far as you can tell?
    Ambassador Patterson. I don't know the answer to that, 
Congressman. I will have to get back to you.
    Mr. DeSantis. I know we picked up Abu Khattala. The 
administration had--I think it was under--we were under the 
impression in Congress that the administration's position about 
responding to the Benghazi attack was that they did not have 
the legal authority to conduct a kinetic attack against Ansar 
al-Sharia. Is that correct? Is that the administration's 
position in terms of how they see their authority if they 
wanted to engage kinetically as a reprisal for the Benghazi 
attack?
    Ambassador Patterson. Congressman, I think we better refer 
that question to the Justice Department. I would feel more 
comfortable with that. This gets into some tricky legal issues 
that I am not fully competent to answer.
    Mr. DeSantis. And is Abu Khattala, is he currently under 
the cognizance of the Defense Department or the Justice 
Department right now?
    Ambassador Patterson. Again, Congressman, we should refer 
that question to the Justice Department which is managing this 
case.
    Mr. DeSantis. Can you say, Mr. Chollet, if the Defense 
Department has control over him?
    Mr. Chollet. Sir, he is en route back to the United States. 
He faces criminal charges on three counts and I will refer all 
questions on this really to the Justice Department.
    Mr. DeSantis. I just wanted to, since you are here, just 
shift gears a little bit. A lot of people are concerned about 
what is going on in Iraq and a lot of focus, justifiably so, is 
focused on ISIS and clearly they are a problem. But I have 
really been alarmed by reports of the Shiite militias who are 
now being activated. It seems like they are the leading 
``defense'' for the Malaki regime. It seems like a lot of the 
Iraqi army has melted away and most alarmingly is the presence 
of the Quds Force commander in Baghdad.
    When I was in Iraq, as U.S. forces were defeating al-Qaeda 
in western Iraq, you had the Quds Force and you had the Shiite 
terror groups. They were blowing up hundreds of U.S. service 
members in Baghdad and eastern Iraq. And it is very, very 
concerning. And so what can you tell me about the footprint of 
Quds Force in particular in terms of being activated to fight 
against ISIS in Iraq? Either one, whichever one wants to take 
it.
    Mr. Chollet. Congressman, I had seen those reports as well 
about the Iranian infiltration within Iraq and particularly 
among the Shia militia. I think what I would like to do, sir, 
is if we could get back to you perhaps in a closed setting and 
we could give you a full brief of our understanding of what is 
going on, particularly regarding the Shia issue. I think you 
are right to identify it. But I think, if we could, that would 
be the way I would like to handle that.
    Ambassador Patterson. Congressman, yes, we have had a 
number of briefings up here with your colleagues, and we would 
be happy to come up here in the next few days and talk to you 
in a closed setting.
    Mr. DeSantis. Great. And I think that it seems to me when 
we debated Syria we kind of focused on Assad and he is backed 
by Hezbollah in Iran, and rightfully so. And there was not as 
much focus on the people. And I think most of them were more 
Islamist, in nature, fighting. But now that ISIS is moving in 
Iraq there is a lot of focus and again, understandably so. But 
I kind of feel like a lot of people are neglecting the extent 
to which the Shiite groups are anti-American. And, of course, 
Iran Quds Force and Prime Minister Netanyahu made a point this 
weekend, we want both of those groups on both sides to be weak 
ultimately. We don't want to choose one side or another and 
strengthen any of them unwittingly. So I really appreciate 
that. I look forward to hearing more and I yield back to the 
chair.
    Ms. Ros-Lehtinen. Thank you very much, Mr. DeSantis. Dr. 
Yoho.
    Mr. Yoho. Thank you, Madam Chair. Thank you for being here 
today, both of you. What is the status of the efforts to draft 
Libya's new Constitution?
    Ambassador Patterson. Sir, the Constitution drafting 
committee, it has about 60 members. Some didn't take their 
seats. It is meeting in a little town called Bayda which is 
relatively peaceful. They have developed a set of principles. 
They have broken down into committees to discuss, to specialize 
and then they will go back and draft their Constitution. We 
don't know the timeframe, but so far so good. And we have been 
providing some assistance to civil society to engage with these 
drafters.
    Mr. Yoho. Is there are a lot of Libyan civilian 
participation in that or is it the government figures or 
military figures? In the process of addressing the question 
such as civilian control of the military and the role of 
Islamic law, how does that equate in that?
    Ambassador Patterson. Yes, those are all in the principles 
and have been discussed in the first stages. The constitutional 
drafters, members were elected. And one thing we have been 
trying to encourage, as have other international partners, is 
that these drafters engage with the public, with civil society 
as they draft the Constitution. I will send you a copy of the 
principles they are working off of.
    Mr. Yoho. Do you know if they have property rights involved 
in that or is that going to be a component of that?
    Ambassador Patterson. I have seen things on the oil 
revenues and frankly, I can't remember if they have property 
rights. But I will get back to you.
    Mr. Yoho. Okay, let me switch gears. I would like to talk 
about the MANPADS. The report that I have got and I have read, 
the numbers are skewed. The numbers go all over the place. I 
have seen from 15,000 to over 30,000 MANPADS. A lot of them 
came from the United States of America, the way I understand 
it. And Mr. Chollet, you were talking about how we have spent 
$40 million tracking these down and trying to get rid of them. 
How is that money spent? Is that accounted for? I mean go 
through the process. Are we hiring contractors to do that? Is 
it our military? Who is actually doing the collection of those 
in the accountability of that?
    Mr. Chollet. Yes, sir, absolutely. I can start. And first, 
I should say in terms of the number of MANPADS and again, this 
was the most urgent issue, one of the most urgent issues we 
faced several years ago right after Gaddafi's fall, the 
estimates widely varied, in part, because we just didn't know. 
Gaddafi was not the world's best bookkeeper in terms of what he 
actually had in stock and also the estimates, the high end 
which we operated from was an estimate driven from our 
assessment of the amount of MANPADS they had acquired since the 
'70s. So that did not account for the MANPADS they used, the 
MANPADS that had been stolen, the MANPADS that were broken over 
the past 30-plus years. So nevertheless, it was a State 
Department administered program. It was done by contractors, 
primarily, but there was a team, a team at the State 
Ambassador, I will let Ambassador Patterson speak to this more, 
that specializes in MANPADS that work out of the Political-
Military Affairs Bureau at the Department of State. And they 
went into Libya soon after the fall of Gaddafi and began a 
program first to identify the stockpile, assess what they had 
and then begin the process of destroying those MANPADS.
    Mr. Yoho. Okay, my concern is, you know, I look back at 
when President Obama demanded that Gaddafi must step down. I 
remember that so succinctly and I see that same thing going now 
in Iraq. Karzai must step down. And for us not to know what is 
on the ground, what is there and what the replacement is going 
to be to fill that vacuum just scares us to death and I know it 
scares a lot of our partners in the Middle East to death. And I 
don't want to make the same mistakes we made in Libya. You must 
step down and they say be careful what you wish for, because if 
it did happen, we weren't in a position I don't feel that we 
could get somebody in there immediately that we could work 
with. Correct me if I am wrong on that.
    Mr. Chollet. See, Iraq and Libya are completely different 
cases. I would argue we probably have a better intel picture 
right now of what is going on in Iraq than we did in Libya 
under Gaddafi, that is for sure. And all I can say, sir, again 
not to in any way minimize the challenge we are facing in Libya 
today, we have shown through some of these relatively modest 
programs that we have been able to take care of what we 
consider to be urgent security threats we faced in terms of the 
chemical weapons and the MANPADS.
    Mr. Yoho. Madam Chair, I yield back. Thank you.
    Ms. Ros-Lehtinen. Thank you so much. I thank the panelists 
for being with us. We enjoy that you are always accessible and 
we remain committed to working with you to see if we can fix 
this mess. Thank you so much and with that the subcommittee is 
adjourned.
    [Whereupon, at 3:10 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 Material submitted for the record by the Honorable Edward R. Royce, a 
Representative in Congress from the State of California, and chairman, 
                      Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]

</pre></body></html>
